           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 THE SOCIAL SECURITY ADMINISTRATION’S
CONTROLS FOR ENSURING THE REMOVAL OF
     SENSITIVE DATA FROM EXCESSED
         COMPUTER EQUIPMENT

     November 2010   A-14-10-11003




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      November 10, 2010                                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Controls for Ensuring the Removal of Sensitive
           Data from Excessed Computer Equipment (A-14-10-11003)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           implemented Recommendation 5 from our December 2002 report, Physical Security for
           the Social Security Administration's Laptop Computers, Cellular Telephones, and
           Pagers (A-14-02-32061), 1 and followed its policies and procedures for the disposal2 of
           workstations and servers. 3

           BACKGROUND
           SSA donates excess IT equipment 4 when possible. The Agency may also sell or
           destroy the equipment. SSA policy 5 requires that IT media be sanitized or destroyed
           before its disposal. At Headquarters, IT equipment disposal is centrally performed. At

           1
             We recommended SSA improve its security procedures for disposing of excess laptops. This should
           include a risk assessment to determine the appropriate level of cleaning of the excess laptops. The
           Agency should also designate an employee from each component to be responsible for certifying and
           erasing all information from the excess laptops according to SSA's disposal procedures for Headquarters.
           The laptops should be tested, on a sample basis, to verify that all programs and data are effectively
           erased prior to donation.
           2
            SSA policy indicates that disposal methods for personal property include certain donations, sale,
           abandonment, and destruction, among others. Administrative Instructions Manual System (AIMS)
           Materiel Resources Manual (MRM) Section 04.29.03. SSA policy also indicates that prior to releasing to
           vendors, disposing, or donating information technology (IT) media, the media must be sanitized or
           destroyed in a manner that prevents unauthorized disclosure of sensitive information. SSA, Information
           System Security Handbook (ISSH), Section 10.3.1.
           3
               A server is a computer that provides services used by other computers.
           4
            Excess IT equipment is equipment retired by SSA for various reasons, such as equipment refreshment
           and replacing equipment that stopped functioning.
           5
               ISSH, Section 10.3.1.
Page 2 - The Commissioner


all other SSA locations, each office disposes its own IT equipment. See Appendix C for
a description of these processes.

In our December 2002 report, we identified two laptops that were not properly sanitized 6
before disposal. In fact, our forensic investigators were able to restore personally
identifiable information (PII) 7 from these laptops. 8 As a result, we recommended SSA
improve its security procedures for disposing of excess laptops, including testing
laptops, on a sample basis, to verify that all programs and data are effectively erased
before their donation.

The Privacy Act of 1974 requires that each Federal agency establish safeguards to
ensure the security and confidentiality of the records it maintains.9 Furthermore, the
Office of Management and Budget (OMB) has issued several memorandums10 to stress
the importance of the protection of PII maintained by the Government. Federal
agencies are required to apply National Institute of Standards and Technology (NIST)
guidance to sanitize information system media before disposal, 11 and the General
Services Administration’s Federal Management Regulation (FMR) requires that Federal
agencies implement policies and procedures for removing sensitive or classified
information from property before disposal. 12


6
 Sanitization refers to the process of removing data from storage media, such that there is reasonable
assurance the data may not be easily retrieved and reconstructed.
7
  PII refers to information that can be used to distinguish or trace an individual's identity, such as their
name, Social Security number, biometric records, etc. alone or when combined with other personal or
identifying information, which is linked or linkable to a specific individual, such as date and place of birth,
mother’s maiden name, etc.
8
 We found 5,308 Social Security numbers, wage information, and names on the hard drives of the
2 laptops.
9
  Pub. L. No. 93-579 § 552a(e)(10), 5 U.S.C. § 552a(e)(10). This section of the Privacy Act also requires
that such safeguards protect against any anticipated threats or hazards to the security and integrity of
such records, which could result in substantial harm, embarrassment, inconvenience, or unfairness to any
individual on whom information is maintained.
10
  OMB Memorandums M-06-15, Safeguarding Personally Identifiable Information, May 22, 2006;
M-06-19, Reporting Incidents Involving Personally Identifiable Information and Incorporating the Cost for
Security in Agency Information Technology Investments, July 12, 2006; and M-07-16, Safeguarding
Against and Responding to the Breach of Personally Identifiable Information, May 22, 2007.
11
   The Federal Information Security Management Act of 2002 (FISMA) requires compliance with
information security standards promulgated under § 11331 of Title 40, which includes standards
promulgated by NIST. Pub. L. No. 107-347, Title III, Section 301 § 3544(a)(1)(B)(i), 44 U.S.C. §
3544(a)(1)(B)(i). NIST recommends organizations sanitize information system media prior to disposal,
release out of organizational control, or release for reuse. NIST Special Publication (SP) 800-53,
Revision 3, Recommended Security Controls for Federal Information Systems and Organizations,
Appendix F, Security Control Catalog, Page F-74, MP-6, Media Sanitization, August 2009
12
     FMR, Subchapter B §102-35.30(c).
Page 3 - The Commissioner


The scope of our 2002 review was limited to testing excess laptops13 at Headquarters.
In our current review, we tested workstations, laptops, and servers that were sanitized
and awaiting disposal at SSA’s Headquarters and Philadelphia Region. In total, we
tested 274 hard drives. 14 Based on the results identified in the following section, we
performed additional testing in some of SSA’s regions. See “Other Matters” section of
this report. For additional Background and Scope and Methodology, see Appendices B
and C, respectively.

RESULTS OF REVIEW
We found the Agency had partially implemented Recommendation 5 from our 2002
report to improve its security procedures for disposing of excess laptops. We also
found that SSA generally complied with its IT equipment disposal policies and
procedures. However, there are opportunities to enhance the Agency’s IT equipment
disposal policies and procedures. Our review identified the following issues.

•     SSA partially implemented our prior recommendation and should revise its IT media
      disposal policies and process.
•     IT media awaiting disposal contained PII.
•     IT media from equipment awaiting disposal was missing.

SSA PARTIALLY IMPLEMENTED OUR PRIOR RECOMMENDATION AND SHOULD
REVISE ITS IT MEDIA DISPOSAL POLICIES AND PROCESS

In our 2002 report, we recommended SSA improve its security procedures for disposing
of excess laptops. This should include

1. assessing risk to determine the appropriate level of cleaning of the excess laptops;
2. designating an employee from each component to be responsible for certifying and
   erasing all information from the excess laptops according to SSA's disposal
   procedures for Headquarters; and
3. testing laptops, on a sample basis, to verify that all programs and data are effectively
   erased before their donation.

Since our 2002 review, SSA has established an agencywide security policy in its ISSH
requiring that before disposal, the IT media must be sanitized or destroyed in such a
way that prevents unauthorized disclosure of sensitive information. 15 The policy also
13
     See Footnote 4.
14
  The hard disk drive is the main, and usually largest, data storage device in a computer. The operating
system, software titles, and most other files are stored on the hard disk drive.
15
   ISSH, Chapter 10, Disposal of Information Technology Media Policy, Section 10.3.1, Disposal/Donation
of Information Technology Equipment.
Page 4 - The Commissioner


requires specific sanitization and destruction methods to be applied in a manner that
makes all data unrecoverable. 16 Therefore, a risk assessment, as required by our
previous recommendation, is not needed to determine the appropriate level of cleaning
of the excess laptops.

SSA’s policy does not require that each component designate an employee to certify
that excess equipment is properly sanitized. According to NIST, organizations should
ensure that property management officials are included in documenting the media
sanitization process to establish proper accountability of equipment and inventory
control. 17 At Headquarters, designated personnel oversee the performance of
sanitization contracts, which require sanitization documentation. In the regions,
however, this documentation is not required.

SSA policy for Headquarters and its regions also does not require that workstations,
laptops, or servers be tested, on a sample basis, to verify that all programs and data are
effectively erased prior to donation. NIST guidance states that verifying the selected
information sanitization and disposal process is an essential step in maintaining
confidentiality. 18 A representative sampling of media should be tested for proper
sanitization to assure the organization that proper protection is maintained. 19 Based on
the above discussion, we concluded that SSA partially implemented our prior
recommendation.

Moreover, SSA’s policy 20 on “Disposal of Personal Property” does not reference the
ISSH IT media disposal policy. The AIMS instruction had not been updated since 1996.
As a result, Agency staff may not have been aware of proper sanitization procedures for
IT equipment before disposal.




16
  To sanitize IT media, one of the following methods must be used: 1) approved overwrite utilities;
2) degaussing; or 3) physical destruction of the media. The overwrite utility must completely overwrite the
media with repetitive characters, making the data unrecoverable. Degaussing must be performed with a
certified tool designed for the media being degaussed. Certification of the tool is required to ensure the
magnetic flux applied to the media is strong enough to render the information irretrievable. Examples of
physical destruction include shredding, pulverizing, and burning. ISSH,supra.
17
     NIST SP 800-88, Guidelines for Media Sanitization, Section 4.8, September 2006.
18
     NIST SP 800-88, supra at Section 4.7.
19
     Id.
20
     SSA, AIMS, MRM § 04.29.
Page 5 - The Commissioner


Although SSA had an IT media disposal policy 21 and process, the following
enhancements are needed.

1. Designate one or more employees within each region to certify and erase all
   information from IT media.
2. Require that workstations, laptops, and servers be tested, on a sample basis, to
   verify that all programs and data are effectively erased before disposal.
3. Identify and resolve the gaps between SSA’s IT media sanitization policy located in
   the ISSH and its procedures located in AIMS.

IT EQUIPMENT SANITIZATION AND DISPOSAL PROCESS

We tested 274 hard drives of excess IT equipment identified by Agency staff as
sanitized and awaiting disposal to determine whether they were, in fact, properly
sanitized. At Headquarters, we selected 45 hard drives from workstations for testing; no
laptops or servers were available during our audit period. We also selected 229 hard
drives from workstations, laptops, and servers at 5 sites in the Philadelphia Region. 22
As shown in Tables 1 and 2 below, we found:

•      5 of 253 workstation hard drives (2 percent) were not properly sanitized. SSA staff
       stated that SSA’s contractor sanitized the five workstation hard drives; however,
       four of the five contained PII.

•      Hard drives were missing from 39 workstations and 2 laptops. SSA could not
       provide documentation that the hard drives were properly disposed of.

              Table 1: OIG Hard Drive Test Results by Type of Equipment

                        Number of Hard Drives Tested by Type of Equipment

                 Type of Equipment     Workstations     Laptops    Servers      Total

                    Total Tested           253             2          19         274

                   Not Sanitized             5             0           0          5

                   Contained PII             4             0           0          4

                Hard Drives Missing         39             2           0         41


21
     See Footnote 15.
22
  Philadelphia Hearing Office; Philadelphia Regional Office; Richmond Downtown Field Office, Camp
Springs Field Office, and Postal Plaza Field Office.
Page 6 - The Commissioner



                               Table 2: OIG Hard Drive Test Results by Site

                                Number of Hard Drives Tested by Site

                Test Sites           HQ   Site 1   Site 2   Site 3   Site 4   Site 5   Total

          Sanitization Performed
                                      0     7       66        6       47       33      159
               by SSA Staff
          Sanitization Performed
                                     45    13        0       57        0        0      115
             by a Contractor
               Total Tested          45    20       66       63       47       33      274
               Not Sanitized          0     4        0        1        0        0       5

               Contained PII          0     3        0        1        0        0       4

           Hard Drives Missing        5     0       34        0        2        0       41


We also found incidents where the Agency released IT equipment that was not properly
sanitized. In May 2009, a private citizen called the police after the words “Social
Security” appeared when accessing hard drives purchased over the Internet. In
March 2010, Office of the Inspector General (OIG) investigators found SSA laptops
purchased at a General Services Administration auction had not been sanitized. While
the numbers of hard drives containing PII may be relatively small, the above examples
reflect the potential risk of negative publicity as well as the risk of disclosing PII.

IT Media Awaiting Disposal Contained PII

We found four of the five unsanitized workstation hard drives contained PII. Our initial
testing of server hard drives indicated that some of the hard drives contained data.
However, further testing was required to determine the data content of the server hard
drives. We performed the additional testing and determined the server hard drives were
successfully sanitized of all PII and contained no significant data.

Federal agencies are required to apply NIST guidance to sanitize information system
media before disposal. 23 However, SSA’s policy and process had some weaknesses.
As previously stated, SSA policy does not require testing a sample of sanitized media to
verify all data and programs are erased before disposal, nor does it require an
employee be designated to certify excess equipment as properly sanitized. A single
hard drive can contain a significant amount of PII; therefore, SSA was at risk of a
significant PII breach.



23
     See Footnote 11.
Page 7 - The Commissioner


During our site visits, we found the following control issue that may also be a
contributing factor to why hard drives had not been properly sanitized. At our site visits,
we observed that some equipment identified as sanitized was not physically marked as
sanitized. This was evident at locations where hard drives were found not to be
sanitized. For example, we found workstations marked with Post-It Notes. However,
the notes did not stick well, and many had fallen on the floor around the area where the
workstations were stored. Therefore, some equipment that had not been sanitized
could easily have been mixed up with equipment that had been sanitized. We
recommend SSA use a better mechanism to mark IT equipment as sanitized or
unsanitized. A better system to identify sanitized equipment will help ensure
unsanitized equipment does not leave SSA.

As a result of our testing and findings, the Agency issued a memorandum to all SSA
Regional Commissioners outlining procedures for excessing workstations.24 The
memorandum instructed offices to confirm the sanitization of workstations when
performed by a contractor and mark sanitized workstations with a sticker or marker. We
commend the Agency for its prompt attention to this matter; however, additional controls
are necessary to prevent a breach of PII.

SSA should implement an agencywide policy to verify and document the sanitization of
IT equipment. The policy should require marking all sanitized equipment and
documenting the serial number of the IT media, if removed from the equipment.
Furthermore, the policy should require that the sanitization method, date and type of
disposal, and the recipient of the equipment be documented. Finally, the policy should
require a representative sampling of IT media be tested for sanitization.

IT Media from Equipment Awaiting Disposal Was Missing

We found that hard drives from some equipment awaiting disposal could not be
accounted for. NIST guidance states it is critical that an organization maintain a record
of its sanitization to document what media were sanitized, when, how they were
sanitized, and the final disposition of the media. 25

We found the Agency does not track the serial numbers of hard drives. As shown in
Table 2 above, 41 pieces of tested equipment (5 at Headquarters and 36 in the
Philadelphia Region) did not contain hard drives. Agency staff stated that hard drives
were removed for destruction when they could not be sanitized. In addition to these
41 missing hard drives, the Office of Publications and Logistics Management’s Center
for Office Property management stated that servers received from Headquarters



24
  SSA Memorandum, Disk Wiping Procedures for Excessing Workstations – INFORMATION,
February 24, 2010.
25
     NIST SP 800-88, Guidelines for Media Sanitization, Section 4.8, September 2006.
Page 8 - The Commissioner


components for disposal generally do not contain hard drives. Since the Agency did not
track the serial numbers of hard drives, there was no documentation to confirm the
removed hard drives’ disposition.

In our 2009 report on SSA’s compliance with FISMA, 26 we indicated that SSA needed to
comply with OMB Memorandum M-06-19 and ensure proper handling of security
incidents from the time of detection to final resolution. SSA management stated it
strives to comply with OMB timeframes;27 however, the Agency conducts additional
research to confirm a PII incident actually occurred. The circumstances surrounding the
41 missing hard drives make it virtually impossible for SSA to confirm that the missing
hard drives constitute a PII incident because SSA does not know whether the hard
drives are within SSA’s control, destroyed, or in the public domain.

The 41 missing hard drives may contain PII. The Agency stated hard drives are
removed for destruction when they cannot be sanitized. SSA, by the very nature of its
mission, collects, stores, and maintains a vast amount of PII. OMB requires that
agencies report all security incidents involving electronic or physical PII to the U.S.
Computer Emergency Readiness Team (US-CERT). 28 OMB guidance indicates that
agencies should not distinguish between suspected and confirmed breaches of PII. 29
Accordingly, we believe the Agency should report the 41 missing IT equipment hard
drives identified in this report and any future missing IT equipment hard drives to US-
CERT.

Further, the five missing hard drives at SSA Headquarters revealed another concern
regarding SSA’s monitoring of its sanitization contractors. The workstations we
selected for testing at Headquarters were awaiting donation and should have contained
hard drives. Although the Agency stated the hard drives were removed for destruction
and the workstations were erroneously placed on a skid for donation, documentation
indicated the five hard drives had been successfully sanitized. SSA stated this
documentation was provided by the contractor. 30 Further, the Agency stated it will
require the contractor to correct its documentation. However, if the contractor’s
documentation cannot be relied on, the Agency cannot be assured its hard drives are
sanitized and destroyed. We recommend SSA monitor sanitization contractors to
ensure tasks are completed properly and correctly documented.

26
  FISMA Report: Fiscal Year 2009 Evaluation of the Social Security Administration’s Compliance with the
Federal Information Security Management Act (A-14-09-19047), November 2009.
27
   OMB Memorandum M-06-19, Reporting Incidents Involving PII and Incorporating the Cost for Security
in Agency Information Technology Investments, July 12, 2006, requires agencies to report all security
incidents involving PII within 1 hour of discovering the incident.
28
     Id. US-CERT is a Federal incident response center located in the Department of Homeland Security.
29
     OMB M-06-19, supra.
30
 We picked up our sample of hard drives from SSA Headquarters workstations on December 4, 2009.
We were told this was the sanitization contractors second day at SSA.
Page 9 - The Commissioner


On December 31, 2009, the Agency issued a new Request for Quote (RFQ) 31 to
provide sanitization and destruction of hard drives in excessed equipment at
Headquarters. In this RFQ, the Agency added the requirement to record the serial
numbers from the removed hard drives, if destroyed. We commend the Agency for its
prompt action; however, the RFQ applies to excessed equipment only at Headquarters.
To mitigate the risk of a PII breach, the Agency must ensure all dispositions of IT media
removed from equipment are properly tracked.

CONCLUSION AND RECOMMENDATIONS
Our review found that the Agency partially implemented Recommendation 5 from our
2002 report. We also found that SSA generally complied with its IT equipment disposal
policies and procedures. However, there are opportunities to enhance the Agency’s IT
equipment disposal policies and procedures and prevent a breach of PII. Therefore,
SSA should:

1. Evaluate its IT media sanitization policies and procedures to ensure compliance with
   Federal laws, regulations, guidelines, standards, and best practices. At a minimum,
   SSA should
        a. Designate one or more employees within each region who will certify and
           erase all information from IT media.
        b. Test a representative sample of sanitized IT media to ensure all data and
           programs are effectively erased before disposal.
2. Identify and resolve the gaps between its IT media sanitization policy located in the
   ISSH and its procedures located in AIMS.
3. Properly mark excess IT equipment with hard drives as sanitized immediately after
   sanitization has been performed.
4. Properly track IT media (i.e., hard drives) through the sanitization and disposal
   process, and document the:
        a. serial numbers of hard drives that have been removed from IT equipment
           such as servers or desktops,
        b. sanitization method used,
        c. date and type of disposal, and
        d. recipient of the equipment.
5. Properly monitor sanitization contractors to ensure tasks are completed properly and
   correctly documented.
6. Report the 41 missing IT equipment hard drives identified in this report and any
   future undocumented disposal of IT equipment hard drives to US-CERT.


31
  An RFQ is a solicitation document used to obtain price, delivery, and other information from prospective
contractors.
Page 10 - The Commissioner


AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with five of six of our recommendations. The Agency partially agreed with
Recommendation 4. The Agency indicated it can revise its policies and procedures to
secure hard drives that have been removed from desktops until destruction. We agree
that these revisions will assist SSA to prevent a PII breach. However, we believe that
tracking the serial numbers of removed hard drives would further assist the Agency to
ensure that these hard drives have been properly accounted for. SSA’s comments are
included in Appendix D.

OTHER MATTERS
After the conclusion of field work, we tested the Agency’s disposal of excess IT
equipment in four regions 32 to determine if conditions similar to those noted in this
report existed in the regions. In two regions, we again observed that some equipment
identified as sanitized was not physically marked as sanitized. We found that all
20 server hard drives tested were properly sanitized; however, 2 of 291 workstation
hard drives tested were not properly sanitized. One of the workstation hard drives
contained PII. No laptops were available to test at the sites we visited.

Based on these results, we determined there is a similar need to improve controls over
the disposal of excessed IT equipment outside of SSA’s Headquarters and Philadelphia
Region. To that end, the corrective action taken in response to the above
recommendations should be agencywide.




                                                         Patrick P. O’Carroll, Jr.




32
     We performed testing in SSA’s Atlanta, Chicago, New York, and Seattle Regions.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – The Social Security Administration’s Media Sanitization Processes

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
AIMS          Administrative Instructions Manual System
COP           Center for Office Property
FISMA         Federal Information Security Management Act of 2002
FMR           Federal Management Regulation
ISSH          Information System Security Handbook
IT            Information Technology
MRM           Materiel Resources Manual
NIST          National Institute of Standards and Technology
OIG           Office of the Inspector General
OMB           Office of Management and Budget
OPLM          Office of Publications and Logistics Management
OTSO          Office of Telecommunications and Systems Operations
PII           Personally Identifiable Information
Pub. L. No.   Public Law Number
RFQ           Request for Quote
SP            Special Publication
SSA           Social Security Administration
U.S.C.        United States Code
US-CERT       United States Computer Emergency Readiness Team
                                                                       Appendix B

Scope and Methodology
To meet our objective, we:

•   Researched related internal and external reviews;
•   Researched Agency policies and procedures regarding the disposal of personal
    property, including the
    o Information Systems Security Handbook, Chapter 10.0, Disposal of Information
      Technology Media Policy;
    o Administrative Instructions Manual System (AIMS), Materiel Resources Manual,
      Chapter 04, Property Management , Instruction Number 29, Disposal of Personal
      Property; and
    o AIMS, Materiel Resources Manual, Chapter 04, Property Management,
      Instruction Number 31, Donation of Computer Equipment for Educational
      Purposes.
•   Reviewed the following criteria:
    o The Privacy Act of 1974, as amended, 5 U.S.C. 552a;
    o Office of Management and Budget (OMB) Memorandum M-06-15, Safeguarding
      Personally Identifiable Information (PII), May 22, 2006;
    o OMB Memorandum M-07-16, Safeguarding Against and Responding to the
      Breach of PII, May 22, 2007;
    o OMB Memorandum M-06-19, Reporting Incidents Involving PII and Incorporating
      the Cost for Security in Agency Information Technology Investments, July 12,
      2006;
    o National Institute of Standards and Technology (NIST) Special Publication (SP)
      800-53, Rev 3, Recommended Security Controls for Federal Information
      Systems and Organizations, August 2009;
    o NIST SP 800-88, Guidelines for Media Sanitization, September 2006; and
    o General Services Administration’s Federal Management Regulation, Subchapter
      B – Personal Property, Part 102-35 – Disposition of Personal Property.
•   Reviewed the contracts and records for contractors involved in the sanitization of
    Agency equipment;
•   Interviewed SSA personnel from the Offices of
    o Disability Adjudication and Review, Region III;
    o Operations, Region III;


                                          B-1
    o Publications and Logistics Management, Office of Property Management, Center
      for Office Property; and
    o Systems, Office of Telecommunications and Systems Operations.
•   Tested the hard drives of excessed equipment identified as sanitized from
    Headquarters and the Philadelphia Region to determine whether they were
    effectively sanitized. We tested the hard drives of equipment at each location in the
    region within 24 hours of notification.

At Headquarters, we examined 45 workstations identified as sanitized and awaiting
donation. Although the Agency had laptops awaiting disposal at Headquarters, we were
unable to test their hard drives because the hard drives had not yet been sanitized.
Also, no server hard drives were available for testing at Headquarters.

In the Philadelphia Region, we examined all the excessed IT equipment reported as
having been sanitized at the Philadelphia Regional Office, one hearing office, and three
field offices. The hard drives of two pieces of equipment were damaged and
unreadable. We performed additional testing in four of SSA’s regions.

We performed our audit at SSA Headquarters and field locations in the Philadelphia
Region from January through March 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                          B-2
                                                                     Appendix C

The Social Security Administration’s Media
Sanitization Processes
At Headquarters, excess workstations, laptops, and servers were provided to the Office
of Publications and Logistics Management’s (OPLM) Center for Office Property (COP).
Although each component was responsible for removing Social Security Administration
(SSA) records and files from the hard drives of its excessed equipment, 1 OPLM’s COP
oversaw a contractor to sanitize or destroy the hard drives prior to disposal. The
Agency stated the Contracting Officer Technical Representative for this contract tested
some equipment marked by the contractor as sanitized to ensure sanitization was
performed. Hard drives that could not be sanitized by OPLM’s COP were taken to the
contractor’s facility and destroyed.

Further, based on discussions with Agency staff, SSA’s components can forward hard
drives to the Office of Telecommunications and Systems Operations (OTSO) for
destruction. According to OTSO procedures, OTSO sanitizes the hard drives upon
receipt, and they are then taken to the contractor’s facility and destroyed.

In the Philadelphia Region, each office disposed of its own workstations, laptops, and
servers. Sanitization was generally performed by SSA staff; however, offices had the
option to have a contractor sanitize old workstations upon installation of replacement
workstations. For some sites we visited, SSA staff stated that it tested the sanitized
media before disposal. If hard drives could not be sanitized, they were sent to OTSO
for destruction by a contractor.




1
    SSA AIMS, MRM 04.31.05 A.1.
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM

Date:      October 8, 2010                                                        Refer To:

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Controls for Ensuring the Removal of Sensitive Data From Excessed Computer Equipment”
           (A-14-10-11003)—INFORMATION


           Thank you for the opportunity to review the draft report. Attached is our response to the report
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS FOR
ENSURING THE REMOVAL OF SENSITIVE DATA FROM EXCESSED COMPUTER
EQUIPMENT” A-14-10-11003

Thank you for the opportunity to review the subject draft report. We offer the following
comments.

Recommendation 1

Evaluate its information technology (IT) media sanitization policies and procedures to ensure
compliance with Federal laws, regulations, guidelines, standards, and best practices. At a
minimum, SSA should:

       a. Designate one or more employees within each region who will certify and erase all
          information from IT media.

       b. Test a representative sample of sanitized IT media to ensure all data and programs are
          effectively erased before disposal.

Comment:

We agree. We have evaluated our IT policies and procedures, and we are preparing a
comprehensive update to our Administrative Instructions Manual System (AIMS) guide,
Materiel Resources Manual (MRM) 04.29, Disposal of Personal Property, in which we will
designate regional employees to assume these roles. As stated in the Information Systems
Security Handbook (ISSH), Appendix B, the Site LAN Coordinator (SLC), and the Local Area
Network (LAN) administrator are working to implement LAN security standards. Our revised
AIMS MRM 04.29 will designate the SLC to follow the ISSH workstation replacement
procedures and erase or wipe clean all hard drives before removal from the worksite, or the SLC
must oversee the workstation replacement contractor’s performance. In addition, we will
designate property managers, custodial officers (CO), and alternate custodial officers (ACO) to
certify data erased from IT media. Our updated AIMS MRM 04.29 will include instructions to
the COs and the ACOs to follow the ISSH procedures and test a representative sample of IT
media based on the volume of excessed equipment to ensure we have erased all data.

In our headquarters offices, we will continue to monitor contractor performance to sanitize or
destroy the hard drives prior to disposal. In June 2010, we conducted the first sample testing of
the headquarters contractor and detected no problems or errors. In the future, we will randomly
test the contractor’s performance for all services.

Recommendation 2

Identify and resolve the gaps between its IT media sanitization policy located in the ISSH and its
procedures located in AIMS.




                                               D-2
Comment:

We agree. We will completely update AIMS MRM 04.29 using current ISSH policies and
procedures and applicable security references. We will complete the draft guide and make it
available for inter-component review.

Recommendation 3

Properly mark excess IT equipment with hard drives as sanitized immediately after sanitization
has been performed.

Comment:

We agree. On March 1, 2010, we awarded the sanitization and destruction services contract to
Turtle Wings (Data Killers), the headquarters’ contractor. The current contract extends through
fiscal year 2015 and includes our amended language to mark excess IT equipment.
We are developing a standard label for purchase and distribution to all offices. The label will
show pertinent information such as “Pass/Fail Sanitized,” “Date Sanitized or Attempted,” “SSA
Names/Position Titles or Contractor Names for Erasure and Certification,” and “Serial Number
of Removed Hard Drive(s).” Our new AIMS update will include these new procedures.

Recommendation 4

Properly track IT media (i.e., hard drives) through the sanitization and disposal process, and
document the:

       a. Serial numbers of hard drives that have been removed from IT equipment such as
          servers or desktops;

       b.   Sanitization method used;

       c. Date and type of disposal; and

       d. Recipient of the equipment.

Comment:

We partially agree. While working with the OIG we readily agreed to amend the language in the
headquarters’ blanket purchase agreement sanitizing contract for hard drives marked for
destruction. The contractor now includes all information listed in this recommendation in its
report to our Office of Publications and Logistics Management.

However, after closer examination of the fifth recommendation in this report and the
requirements to implement this process agency-wide we now offer other options. We fully
concur with this recommendation for servers that contain multiple hard drives. The vendor
provides the hard drive serial numbers associated with each server upon initial acquisition of the



                                                D-3
equipment. System’s Change, Asset, and Problem Reporting System (CAPRS) tracks the serial
numbers of the hard drives in servers, and the information is available from the time of purchase
to removal of the hard drives. Desktops present a big challenge. Neither CAPRS nor Sunflower
(our property accountability system) includes the hard drive serial number associated with each
central processing unit (CPU) desktop. The serial number is unknown, and to obtain the
information would prove to be very labor-intensive for our property managers while adding little
value to the risk of losing personally identifiable information (PII). While awaiting destruction,
the real concern is unauthorized access to these hard drives once removed from the CPU. We
can implement the recommendation by revising current policies and procedures in the AIMS
guide that require SLCs, property managers, and contractors to remove the hard drives and place
them in a secure location with restricted access while awaiting destruction and to destroy laptops
and Blackberries if they fail the disk wipe procedures.

Recommendation 5

Properly monitor sanitization contractors to ensure tasks are completed properly and correctly
documented.

Comment:

We agree. We amended the March 2010 contract for headquarters and in April 2010 worked
with the contractor on our requirements. The contractor performed acceptable services during a
visit in June 2010. As needed, we will contact the contractor for future headquarters sanitization
and destruction services. For the regional offices, we will add these requirements to our revised
AIMS guide that will apply to our employees and contractors.

While some contracts include provisions for the vendor to perform IT media sanitization, it is the
responsibility of each of our offices to monitor the vendor properly. When the vendor sanitizes
IT media during warranty repair, the vendor is required to maintain a secure chain of custody and
provide a monthly report accounting for any recovered IT media.

Recommendation 6

Report the 41 missing IT equipment hard drives identified in this report and any future
undocumented disposal of IT equipment hard drives to the United States Computer Emergency
Readiness Team (US-CERT).

Comment:

We agree. We will follow the PII loss procedures in ISSH and will tell our National Network
Service Center to relay the information to the US-CERT. We will add these current procedures
to our revised AIMS procedures.


[SSA also provided a technical comment that has been addressed, where
appropriate, in the report.]



                                               D-4
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division

   Grace Chi, Audit Manager

Acknowledgments

In addition to those named above:

   Michael Zimmerman, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-10-11003.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
